<html>
<title> - THE PATH FORWARD IN LIBYA</title>
<body><pre>[Senate Hearing 114-784]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-784

                       THE PATH FORWARD IN LIBYA

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                             MARCH 3, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

30-552 PDF                     WASHINGTON : 2018                          
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  

























                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     ?


Wehrey, Fred, Ph.D., Senior Associate, Middle East Program, 
  Carnegie Endowment for International Peace, Washington, DC.....     4

    Prepared statement...........................................     5


Grazzini, Claudia, Ph.D., Senior Analyst, Libya, International 
  Crisis Group, Washington, DC...................................     8

    Prepared statement...........................................    10




                             (iii)        

  

 
                       THE PATH FORWARD IN LIBYA

                              ----------                              


                        THURSDAY, MARCH 3, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:59 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Johnson, 
Flake, Gardner, Perdue, Cardin, Menendez, Coons, Murphy, Kaine, 
and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  We will start a minute early today. The 
Foreign Relations Committee will come to order.
    I want to thank our witnesses for testifying today. I know 
Mr. Wehrey just returned I think maybe this morning from Libya, 
or last night, but this will be fresh input, and we appreciate 
that very much.
    Like many policy issues, Libya has come in and out of the 
spotlight over the last 5 years. Today, we are again focused on 
Libya because of the struggle to form a unity government and 
the growth of ISIS within the country.
    One of the tragedies of Libya has been our inability to 
build substantial policies that will help Libya progress out of 
the revolution. I hope this time the focus on Libya will not 
fade and that you can help us determine what our approach 
should be. Again, we thank you both for being here.
    I think it is worth noting that even if a unity government 
is successfully seated in Tripoli, Libya will only be back to 
where we were in 2013, after U.S. Ambassador Chris Stevens was 
tragically killed and 2 years before ISIS established itself in 
Libya.
    For a country with vast oil wealth and void of widespread 
sectarian tensions, Libya should become a success story. I 
think we all are disheartened that U.S. policy, or lack 
thereof, has hindered Libya's progress. I hope our witnesses 
today can give us a sense of how we got here, and what options 
we have going forward.
    Libya raises important questions about the efficacy of U.S. 
military intervention and the necessary follow-up. American 
intervention helped to depose a brutal dictator but the 
complete lack of a plan moving forward created a vacuum, 
allowing ISIS to form a terrorist safe haven in the country.
    By contrast, in Syria, our complete failure to act when we 
had the opportunity to shift the balance in favor of Free 
Syrian opposition clearly shows that American inaction can be 
just as disastrous.
    I hope you can help us answer some of those questions in a 
constructive manner so that we do not use Libya as an anecdote 
for or against intervention but rather we learn from the past 
to better inform our actions in the future.
    I want to thank you again and turn to our distinguished 
ranking member, Senator Cardin, for his comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, first off, thank you for 
convening this hearing. This is an extremely important subject, 
what is happening in Libya, and finding a path forward. We have 
two I think outstanding witnesses who can help us better 
understand the current situation in Libya, and how the United 
States can help move that country forward toward a unity 
government at peace.
    It has been just over 5 years since the Libyan people 
courageously came together to challenge the brutal Qadhafi 
regime. The ensuing transition has not been easy as the Libyan 
people inherited a state built on a cult of personality rather 
than on long-lasting national institutions.
    Now Libyan leaders and the Libyan people have an 
opportunity. In December 2015, after tireless efforts by Libyan 
leaders, the United Nations, the United States, the Europeans, 
the Arab diplomats, Libyans, all agreed to form a Government of 
National Accord. Five years after their revolution, rival 
Libyan parliament and other factions should honor their 
people's sacrifice and implement this agreement, which offers 
the best hope for stability and prosperity.
    This is an important moment, and it is my hope that the 
Libyan leaders will move their country forward toward a better 
future. The alternative, quite frankly, is more division, a 
weakened Libya, and an opening for ISIL and other violent 
extremist groups to further entrench themselves and terrorize 
the Libyan people, bringing about misery and death.
    A united Libya is critical for restoring security and 
improving the well-being of its citizens.
    I cannot stress enough that in Libya, as in many war-torn 
countries across the Middle East, there is no military solution 
to the conflict. We cannot win a military battle. We need to 
bring the country together.
    Only a negotiated political settlement can end the chaos, 
violence, and human suffering, and set the country on a path of 
inclusiveness and stability.
    Because we know the current path is going nowhere in a 
country blessed with abundant energy resources, it is estimated 
that nearly a third of the population need humanitarian 
assistance, and over a million Libyans are suffering from 
malnutrition. Continued violence is creating a public health 
crisis with more than 40 percent of health facilities not 
functioning.
    I am also deeply alarmed by reports of a growing ISIL 
presence in parts of Libya. But I also believe that outside 
military intervention, absent the political process and broad 
Libyan buy-in, may just exacerbate the problem. Only a strong, 
confident, and united Libya can work together with the 
international community to combat terrorism. The urgency to 
convey the need for unity to Libyan leaders cannot be 
overstated.
    If ISIL is permitted to grow on Libyan soil, not only will 
it cause untold suffering, but it will also destroy critical 
energy infrastructure needed for reconstruction.
    A national unity government is needed now, so that Libyans 
may begin a process of disarming and demobilizing militias and 
transitioning these young men into sustainable employment.
    At the same time, work on security sector reform and 
building a unified national military that is responsive and 
accountable to all Libyan citizens must begin immediately.
    The reality is that instability in Libya affects the entire 
Mediterranean. I am deeply disturbed by the continued reports 
of human smuggling and the plight of migrants, some of whom 
have drowned on the perilous journey from Libya to the Italian 
coast.
    Libya has become a transit point for trafficking in persons 
from sub-Saharan Africa. Only a stable state with firm borders 
can prevent these human atrocities and lend assistance to those 
in need.
    A stable Libya able to secure its own borders is also 
critical for ensuring the security of our partners in North 
Africa, especially Egypt and Tunisia.
    The time has come for Libya to unite and embrace a better 
future. The United States Government has demonstrated its 
willingness to provide full backing to a unified Libyan 
government, as well as offer technical, economic, security, and 
counterterrorism assistance.
    I strongly support these efforts. We should be prepared to 
offer our support should implementation of the Government of 
National Accord move forward expeditiously.
    I also would like to applaud the United Nations and its 
support mission in Libya for its continued diplomatic 
engagement. It is imperative that our partners in Europe remain 
committed to supporting Libya at this critical time, and all 
countries must work together to have a sustainable solution and 
a stable future for Libya.
    Mr. Chairman, I look forward to hearing from our witnesses.
    The Chairman.  Thank you very much for your comments.
    We will now turn to our witnesses. Our first witness is Dr. 
Frederick Wehrey, senior associate for the Middle East Program 
at the Carnegie Endowment for International Peace. Our second 
witness today is Dr. Claudia Gazzini, a senior analyst on Libya 
for the International Crisis Group. We thank you both for your 
contributions.
    I think you know you can summarize your comments. Without 
objection, your written testimony will be entered into the 
record.
    If you would begin, Fred, we would appreciate it. We thank 
you again very much.

STATEMENT OF FRED WEHREY, PH.D., SENIOR ASSOCIATE, MIDDLE EAST 
     PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                        WASHINGTON, D.C.

    Dr. Wehrey. Thank you very much. Chairman Corker, Ranking 
Member Cardin, committee members, I am grateful for this 
opportunity to speak with you here today about Libya's 
worsening crisis and the next steps for U.S. policy.
    I just returned last night from Libya, where I saw 
firsthand the country's humanitarian plight, political 
divisions, and the struggle against the self-proclaimed Islamic 
state. I spoke to the young militia fighters who are on the 
frontlines against the Islamic state. I heard stories from the 
victims of its atrocities.
    What struck me most is that Libya's fragmentation into 
armed militias, tribes, and towns has created a vacuum that the 
Islamic state is exploiting. This dissolution also presents a 
number of risks for U.S. and Western strategy against the 
Islamic state.
    First, there is no national military command through which 
the U.S. and its allies can channel counterterrorism aid. The 
country is split between two loose constellations of armed 
actors--so-called Dignity camp in the east and the Dawn camp in 
the west. Now over the last year, these two factions have 
fragmented, splintered to the point that they exist in name 
only.
    Although the factions signed an agreement in December for a 
new Government of National Accord, that government remains 
stillborn and unable to exert its authority. A key stumbling 
block is the question of who and what faction will control the 
country's armed forces.
    Perhaps most worrisome is that these two camps are still, 
in my view, more focused on viewing each other as a threat 
rather than the Islamic state. Many are, in fact, using the 
danger posed by the Islamic state as a pretext to wage war 
against local rivals over political supremacy, turf, and 
economic spoils.
    Both sides accuse the other of collusion with the Islamic 
state. I saw this firsthand during a recent visit to the 
western town of Sabratha in the wake of the U.S. strike against 
an Islamic state facility last week.
    A great risk is that outside intervention against the 
Islamic state before a cohesive government is formed could 
sharpen these political fault lines. It could boost the power 
of militia bosses, and sow the seeds of future conflict.
    The current strategy appears to involve Western Special 
Operations Forces liaising with, training, and advising Libyan 
militias, backed by aircraft using precision-guided munitions. 
But by assisting armed groups against the Islamic state, these 
special operators could, in fact, encourage greater factional 
conflict, and they could reduce the incentives for political 
reconciliation.
    Already, we are seeing signs of this happening in Benghazi 
with recent advances by the military forces of light with 
General Khalifa Hifter. This danger is also present in the town 
of Sirte and surrounding areas where the Islamic state is 
exploiting longstanding tribal grievances.
    Now to prevent further fracturing, the U.S. should lend 
military assistance in a way that promotes reconciliation and 
cooperation between rival forces on the ground. It must tie 
military and counterterrorism assistance for the fight against 
the Islamic state to a process of integration of armed groups 
into a national command structure. To be eligible for 
counterterrorism training and equipment, for example, armed 
groups should accept the unity government.
    But that alone will not be enough. U.S. counterterrorism 
assistance should include the establishment of regional 
coordination mechanisms among local militias. The goal here is 
to set the stage for building a new cohesive and democratically 
controlled military. This will also mean intensifying Western 
diplomatic engagement to overcome the current standoff over who 
will command the army.
    A key priority should also be the redoubling of a U.N.-led 
security dialogue among armed actors on the ground. And the 
U.S. must also limit meddling in Libyan affairs by regional 
states under the guise of counterterrorism, which thus far has 
been highly partisan and destabilizing.
    Over the mid- and long-term, once a unity government has 
returned, the U.S. must redouble its efforts to address 
radicalism's root causes. This should include reforming the 
oil-driven economy, supporting civil society and municipal-
level governance, training the army and police, and 
restructuring defense institutions.
    Mr. Chairman, my recent trip left me with a strong 
appreciation for Libyans' resilience. The political fissures 
that rack the country are not unbridgeable.
    Contrary to some alarmist accounts, Libya has not fallen to 
extremism. Libya still has multiple actors willing and capable 
of defeating the terrorists' narrative and territorial control.
    But the United States must work carefully to ensure that 
its strategy against the Islamic state harnesses and unifies 
these forces, rather than further divide them.
    Thank you for the opportunity to speak here today.
    [Dr. Wehrey's prepared statement follows:]


                   Prepared Statement of Fred Wehrey

    Chairman Corker, Ranking Member Cardin, Committee members, I am 
grateful for this opportunity to speak with you about Libya's worsening 
security crisis and the next steps for U.S. policy.
    I have just returned from two weeks in Libya, where I saw firsthand 
the country's humanitarian plight, political divisions, and growing 
vulnerability to the self-proclaimed Islamic State. I spoke to the 
young militia fighters who are on the frontlines against the Islamic 
State. I heard stories from the victims of its atrocities. What struck 
me most is that Libya's fragmentation and the devolution of power-- to 
armed militias, tribes, and towns--has created a power vacuum that the 
Islamic State is exploiting. This dissolution makes it exceptionally 
difficult for the United States and Western powers to intervene.
    There is no national military command through which the United 
States and Western allies can channel counterterrorism aid. Perhaps 
more worrisome is that many of Libya's factions are still more focused 
on viewing each other as more of a threat than the Islamic State. Many 
are using the danger posed by the Islamic State as a pretext to wage 
war against local rivals over political power, turf, and economic 
privilege. A great risk is that outside intervention against the 
Islamic State, before a cohesive government is formed, could exacerbate 
political conflicts, bolster the power of local militias, and throw the 
country into greater turmoil.
    To be sure, the growing threat of the Islamic State demands a 
forcible response, above all from Libyans themselves, backed by Western 
support. That assistance is likely to involve special operations 
forces--who are reportedly already on the ground--liaising with, 
training, and advising Libyan units, backed by aircraft using 
precision-guided munitions. But any strategy to tackle the Islamic 
State should first aim at bridging Libyan political divides and 
providing aid in a way that promotes cooperation between rival military 
forces.
The Islamic State and Libya's Political Vacuum
    Since the summer of 2014, the Islamic State has exploited a 
governance vacuum within Libya, expanding their reach from what was 
once just a toehold into a foothold. It has clashed with, and in some 
areas displaced, older jihadist groups affiliated with al Qaeda. It has 
used Libya's lawlessness to attract foreign recruits, conduct training, 
and plot operations abroad. The Islamic State now controls the central 
coastal city of Sirte and is attacking the nearby petroleum facilities 
to prevent much-needed revenue from reaching Libya's central bank. In 
the western city of Sabratha it took over a logistical hub to train 
Libyan, Tunisian, and other foreign combatants to fight in Syria. More 
recently, it has sent hundreds of fighters from Iraq and Syria to Libya 
in a calculated fallback strategy; the total number of Islamic State 
fighters in Libya is estimated to be between 3,000 and 6,500.
    For Libyans and Western governments alike, the biggest obstacle to 
confronting the Islamic State is Libya's political fragmentation. The 
country is split into two loose constellations of armed actors. The 
first is the Tripoli-based ``Dawn'' coalition, which comprises Islamist 
fighters and militias from the western part of the country. The second 
is the ``Dignity'' umbrella, which is drawn from eastern tribes, 
federalists, some western militias, and Qaddafi-era officers recruited 
into a self-styled ``Libyan National Army'' led by General Khalifa 
Hifter.
    In the past year, internal power struggles have fractured these two 
groups to the point that they exist only in name. Worse, both have been 
so focused on preventing rivals from gaining ground that they've 
allowed the Islamic State to expand, often cynically using the 
terrorist group's presence to accuse their adversaries of collusion. 
Even in instances where regional militias agree on the Islamic State 
threat, their distrust of each other has hampered military 
effectiveness on the ground. For example, I recently spoke to several 
fighters from Sabratha who told me that competing interests between 
pro-Dignity and pro-Dawn forces--drawn from Sabratha's rival tribes and 
surrounding towns--had undermined the effort to root out Islamic State 
radicals.
    Representatives from the two sides recently signed a UN-brokered 
agreement to form a unity government which, Western officials hope, 
will soon issue a formal invitation for military assistance. But the 
unity agreement is fragile and incomplete, having been pushed through 
under Western pressure despite resistance from key local players. The 
Presidency Council, the executive body established by the agreement, 
has started to falter before even having managed to form a government. 
Unless it can obtain the formal support of Libya's two rival 
legislatures and take office in the capital Tripoli, the unity 
government will be widely perceived as a Western puppet and a ``third 
government.''
    Even if the new government does overcome the initial hurdles, it 
will quickly face the daunting task of re-establishing centralized 
military command and building loyal, integrated units out of a 
collection of disparate militias. A key stumbling block is Hifter's 
continued presence as commander in chief of the Libyan National Army. 
The Dignity camp's failure to remove him gives fuel to rejectionists in 
the rival camp and precludes the creation of a single chain of command 
under the new government. The loose alliance that Hifter leads is 
itself rife with divisions: the majority of his forces in Benghazi are 
not uniformed army troops but irregular neighborhood and tribal 
militias.
The Risks of A Proxy Strategy
    Western military strategy against the Islamic State is proceeding 
along two paths: a training program to stand up new army units loyal to 
the government and a counterterrorism effort focused on providing 
assistance to those forces on the ground that are most capable and most 
willing to confront the Islamic State. Neither path offers a remedy to 
the problem of factionalism in Libya's security sector--and both could 
make matters worse.
    The training program is based on the flawed premise that Libya 
lacks skilled fighters. In fact, it has lacked governments capable of 
bringing skilled fighters under a centralized command. A Western 
training effort in 2013-14 to build a national army--the so-called 
general purpose force--failed because there was no national military 
structure for recruits to join. Those recruits that did complete the 
training returned to Libya and were either put on leave or melted back 
into militias. Another training program risks repeating this error, 
unless the new government agrees on a roadmap for building a unified 
and professional military. In the best-case scenario, such efforts 
would result in a reliable military for future governments to use. But 
it would not offer an immediate response to the urgent Islamic State 
threat.
    In the meantime, Western governments will seek to back existing 
forces against the Islamic State. And that is where the problem lies. 
By liaising with and assisting armed groups against the Islamic State, 
Western special operations could empower factionalism and reduce the 
incentives for political reconciliation. Already, this appears to be 
happening with the recent advances of Libyan forces under General 
Hifter in Benghazi. In addition, navigating the patchwork of competing 
militia claims will be a daunting challenge. In setting up a physical 
presence--a training camp or an operations center--on the turf of a 
particular armed group, Western special operations forces could create 
the impression of partisanship, causing rivals to seek out 
counterbalancing alliances.
    This danger is especially dire in Sirte and surrounding areas. The 
most powerful militias equipped to liberate Sirte from Islamic State 
control are from the nearby coastal city of Misrata. But an explicit 
American and European partnership with Misrata would antagonize key 
familial segments of Sirte's population, who in 2011 suffered abuses 
when Misratan militias overran the territory. By the same token, 
simultaneous Western support to militias to the east of Sirte, such as 
the Petroleum Facilities Guard under Ibrahim Jadran, could end with 
those militias turning their guns on their Misratan rivals in a 
scramble for the region's oil resources.
Focus on Political Unity and Local Military Coordination
    Counterterrorism assistance in Libya must reinforce the building of 
inclusive political and security institutions. A key priority should be 
to support the establishment of integrated structures and units in the 
security sector. At the political level, that will require intensive 
engagement to overcome the standoff over the army leadership and 
promote cooperation between representatives of rival camps in the 
Presidency Council, its government, and the military command.
    On the ground, the West must tie assistance for the fight against 
the Islamic State to a process of integration of armed groups. To be 
eligible to receive counterterrorism support, for example, armed groups 
should accept the unity government and subordinate themselves to its 
national command structure. But that won't be enough. To avoid 
destabilizing the country, Western military assistance must also 
include the establishment of coordinating mechanisms between Libyan 
military forces on the ground. These could include command centers 
between militias on a regional basis, with the aim of gradually 
creating centralized command structures and, eventually, dissolving 
local militias into consolidated army units. Western advisers should 
encourage militias from Misrata, Ajdabiya, and southern Libya, for 
example, to cooperate with army officers from Sirte to lead the 
offensive against the Islamic State in the city.
    Regional command centers would be staffed by local army officers, 
militia commanders, and foreign special operations advisers who would 
facilitate the transfer of intelligence, de-conflict ground movements 
with airstrikes, and, perhaps most importantly, act as neutral 
political arbiters. For such assistance to work, Western states--
France, the United Kingdom, and the United States--will need to 
coordinate their efforts closely. They will also need to ensure that 
regional military forces from Egypt, Qatar, and United Arab Emirates 
support this strategy and do not attempt to set up parallel advisory 
and assistance channels--these states' previous meddling has been 
deeply partisan and unhelpful in both combating the Islamic State and 
resolving Libya's civil conflict.
    Above all, Western involvement in Libya should be geared toward 
supporting the unity government, which will need to back any efforts to 
promote battlefield coordination among regional militias. No single 
group should receive assistance unless it is considered both neutral in 
local power struggles and loyal to the unity government. Further, if 
the government makes progress on re-unifying command structures, 
Western assistance should flow through a national chain of command, 
rather than directly to regional coordination centers. Of course, if 
the Presidency Council remains paralyzed by internal divisions, or the 
agreement collapses, the Western-backed regional coordination centers 
will have no chance of ever evolving into a foundation for an 
integrated military. At the very least, however, the strategy will 
reduce the risk that military assistance will widen political rifts and 
contribute to the failure of the unity government.
    Alarmist assessments of the Islamic State in Libya should not lead 
to a hasty and heavy-handed intervention. The Islamic State may be 
expanding its presence in Libya, but it has not been able to tap into 
the popular discontent of broad segments of the population--yet. Unlike 
in Iraq or Syria, the Islamic State cannot prey on sectarian fears in 
Libya. It has not shown an ability to set up durable governance 
structures in areas it controls. Libya still has multiple societal and 
political actors capable of and willing to fight back against the 
group. The Western approach should work carefully to ensure that it 
harnesses and unifies these actors rather than dividing them.
    Thank you for the opportunity to speak with you today.


    The Chairman.  Thank you.
    Dr. Gazzini?

  STATEMENT OF CLAUDIA GAZZINI, PH.D., SENIOR ANALYST, LIBYA, 
          INTERNATIONAL CRISIS GROUP, WASHINGTON, D.C.

    Dr. Gazzini. Thank you. I appreciate this opportunity to 
appear this morning on behalf of the International Crisis Group 
before the Senate Foreign Relations Committee to discuss the 
political, economic, and security crisis in Libya.
    The International Crisis Group has been working in Libya 
since 2011. We are an independent, nonpartisan, nongovernmental 
organization that provides field-based analyses and policy 
recommendations. As their analyst for Libya, I am proud to say 
that our work is very field-based. Essentially, we talk to all 
stakeholders, politicians, militia leaders, smugglers, at 
times, to get a view of what is happening in the country.
    This is what I do. This is what I have been doing for the 
past 4 or 5 years in the country. I mention this because 
talking to a wide array of stakeholders on the ground sometimes 
gives us a deeper, at times more critical, perspective of the 
events taking place in the country.
    For example, while most diplomats were and remain upbeat on 
the possibility of implementing the U.N.-backed Libyan 
political agreement, on the basis of our meetings with the 
Libyan stakeholders back in December, we took a more critical 
view of the possibility of implementing that political deal. We 
warned that that agreement lacks sufficient Libyan buy-in.
    So today, before looking at what is the path ahead for your 
government for Libya, let us look at where the country stands.
    From a political point of view, Libya is still 
institutionally divided. The Libyan political agreement, the 
U.N.-backed plan signed by a group of Libyan politicians in 
December and backed by the U.N. Security Council, was supposed 
to end the political crisis that has divided the country 
institutionally since the summer of 2014.
    Despite the ongoing efforts by U.N. Special Representative 
Martin Kobler, Libya still does not have a unity government in 
place. Sizable numbers of members of the two rival parliaments 
continue to oppose the terms of the agreement and the 
government lineup that has been proposed.
    So in short, Libya today remains a divided country, and the 
chances of implementing that U.N.-backed deal remain scant. 
Even in the most optimistic scenario, the agreement will take 
time to implement and the future government will face the 
problem of how to take seat in Tripoli.
    But the country's economic situation is also dire. Libya, 
as you know, is an oil-rich country, but over the past 2 years, 
production of crude oil has plummeted because of attacks on oil 
fields and oil terminals. The drop in oil prices has forced the 
country to run a deficit of up to $2 billion to $3 billion a 
month. This has rapidly drained the country's reserves of 
foreign currency, which are now between $50 billion and $60 
billion, less than half of what they were just 2 years ago.
    Further compounding the country's economic problems is the 
fact the country's main financial institutions--its Central 
Bank, the National Oil Corporation, and the country's sovereign 
wealth fund--are institutionally divided along the same 
political lines mentioned before.
    The country's security landscape is also dire. The two 
rival military coalitions have become increasingly fragmented 
and the leadership of both coalitions is contested.
    So what to do? What is the best course of action for the 
United States at this moment in time?
    Certainly, the threat of the Islamic state in Libya is of 
great concern but rushing an international military 
intervention in Libya to counter the Islamic state would be 
shortsighted and would probably backfire. Any such intervention 
should be discreet, measured, and linked to a political 
strategy aimed at bringing Libyan armed factions together and 
political factions into a single government. That must remain 
the overarching goal.
    Any effective action against the Islamic state in Libya 
will require local Libyan allies. This should be a Libyan-led 
effort. The best way to achieve this would be to encourage a 
dialogue between Libyan security actors.
    Security arrangements and political negotiations must go 
hand-in-hand and not, as has been the case over the past 2 
years, treated as two separate processes.
    Similar strategic mistakes were made with the economy. The 
question of how to better manage, secure, and distribute 
Libya's resources and wealth cannot wait. A short-term 
requirement to stabilize Libya's finances would be an agreement 
by the rival camps on two broad issues. What measures can be 
taken to increase oil and gas production in order to replenish 
the state coffers, and how to maintain a coherent, unified 
financial system.
    Let us not forget that there is no better recipe for ISIS 
expansion in the country than a country that is on the verge of 
economic collapse, a country where an illicit war economy 
thrives.
    The Libyan conflict is multidimensional and complex. The 
political dimension cannot be dealt with separately from the 
economic dimension. And both are dependent on security 
arrangements.
    What is needed is a more concerted effort by all 
stakeholders on these three fronts simultaneously. We think 
that the U.S. has a major role to play here, particularly in 
ensuring that regional actors that are also enmeshed in the 
conflict play a more constructive role.
    So in conclusion, there needs to be simultaneous efforts to 
overcome Libya's economic fractures and economic and financial 
crises, build bridges in a fragmented security landscape, and 
build confidence in a future government of national unity.
    Only these three simultaneous efforts can prepare the 
ground in Libya for an inclusive, constructive, and, hopefully, 
lasting agreement, and for a return of a united and peaceful 
Libya.
    [Dr. Gazzini's prepared statement follows:]


                 Prepared Statement of Claudia Gazzini

    I appreciate the opportunity to appear this morning on behalf of 
the International Crisis Group before the Senate Foreign Relations 
Committee to discuss the political, economic, and security crisis in 
Libya and possible ways forward. We want to thank the chairman, ranking 
member and members of the Committee for calling U.S. attention to the 
situation in Libya. For the past three years, Libya has continued a 
downward trajectory towards security and political fragmentation, 
economic collapse and--more recently--towards becoming a haven for, and 
therefore the latest frontier in the fight against, the Islamic State.
    The International Crisis Group has been working in Libya since 
2011. We are an independent, non-partisan, non-governmental 
organization that provides field-based analysis and policy 
recommendations to governments, the United Nations, the European Union 
and other multilateral organizations on the prevention and resolution 
of deadly conflict. Crisis Group came into being because our founders 
believed that too often, major powers and international organizations 
ignored the cables, however incomplete they might be, coming in from 
Rwanda, or Srebrenica or the Congo. After the Cold War, there were no 
strategic linkages from those countries affecting major powers, other 
than the sheer horror of the human suffering being inflicted.
    In some cases, after-action reports blamed inaction on an absence 
of sufficiently early warning. In others, it was the absence of 
mechanisms to implement a perfect response. Most of the time, it was 
the failure to forge the political will to respond.
    We were founded in 1995 by distinguished diplomats, statesmen and 
opinion leaders including Career Ambassador Mort Abramowitz, Nobel 
Prize winner and former Finnish president Martti Ahtisaari, the late 
Congressman Stephen Solarz, and former U.N. deputy secretary-general 
and British diplomat Lord Mark Malloch-Brown, now our co-chair.
    Jean-Marie Guehenno, our current president, is the former head of 
U.N. peacekeeping under Kofi Annan.
    Our board of national and international leaders includes six former 
heads of state including President Ricardo Lagos of Chile; and eight 
former foreign or defense ministers including Javier Solana of Spain 
and the EU, Lakhdar Brahimi of Algeria, Emma Bonino of Italy and 
Sweden's Carl Bildt and distinguished U.S. foreign policy leaders 
including former Senator Olympia Snowe, Ambassador and former 
Undersecretary of State for Political Affairs Thomas Pickering, and 
former NATO Supreme Commander Wes Clark.
    We publish some 60 reports each year on what is happening on the 
ground prepared by our staff in about 10 sub-regional and national 
offices in Africa, Asia, Latin America, Europe and the Middle East, 
covering between them more than 50 conflicts. We maintain advocacy and 
research offices in Washington where we interact with the U.S. 
government, in New York with the U.N.; in Brussels where our global 
headquarters engages the European Union, in London with outreach to 
Europe.
    Our main asset is our field-based research. We talk to stakeholders 
on the ground and try to understand, in real time, what is happening 
and why. This is because we believe that the first step towards 
resolving deadly conflict is to gain a deep and nuanced understanding 
of what moves rival factions or governments to take up arms, who is 
backing them and for what purpose.
    In a country as fractured as Libya, this means talking to 
representatives from and those with access to Libya's rival parliaments 
and governments, militia leaders, army officers, smugglers, tribal 
leaders, displaced people, jihadists, as well as wide range of 
businessmen and civil society activists, medics, women and foreign 
stakeholders. On the basis of these conversations and on-the-ground 
observations, we draft publicly available reports and make concrete, 
implementable policy recommendations.
    That is essentially what I do in my capacity as senior Libya 
analyst for the International Crisis Group. While most Western 
embassies and organizations pulled out of Libya in the summer of 2014 
when armed groups launched a violent assault on Tripoli international 
airport, we remained present in the country. In mid-2015 we also 
relocated our operational base outside of Libya, but continued to 
travel there on a regular basis. Throughout this past year, I have 
visited the west, the east, and south of the country on multiple 
occasions.
    I mention this because I believe that access to the country and 
talking to a wide array of stakeholders on the ground gives us a 
deeper, more fine-grained (and at times more critical) perspective on 
the events taking place and the challenges ahead. For example, while 
most of the foreign diplomats were (and remain) upbeat on the 
possibility of implementing the U.N.-backed Libyan Political Agreement 
(LPA), on the basis of our meetings with a wide spectrum of Libyan 
stakeholders in late 2015 we at Crisis Group took a more critical view 
of the deal's potential and warned that the agreement lacked sufficient 
Libyan buy-in, and that attempting to push an agreement without broader 
elite support would unfortunately doom it to failure and possibly 
precipitate a sharp deterioration of the situation.
    Before looking at the path ahead for Libya, let us see where the 
country stands today.
    From a political point of view, Libya remains institutionally 
divided. The LPA, a U.N.-backed plan signed by a group of Libyan 
politicians on 17 December 2015 and backed by the U.N. Security Council 
on 23 December, was supposed to put an end to the crisis that has split 
the government and divided this oil-rich country since mid-2014. It was 
also supposed to lead to the creation of a government of national 
accord (GNA). Despite the ongoing mediation efforts of the U.N. 
Secretary General's Special Representative, Martin Kobler, Libya today 
still does not have a unity government in place. The internationally-
backed Presidency Council--a committee of nine men including a Prime 
Minister-designate, Fayez Serraj, tasked with proposing the cabinet 
line-up for the GNA--continues to operate from outside Libya, first in 
Tunisia and more recently from Morocco. A sizable number of members of 
Libya's two rival parliaments continue - for different reasons - to 
oppose the terms of the agreement. Some Libyans who backed the U.N. 
deal are now calling for its complete reset. In short, Libya today 
remains a divided country and the chances of implementing the U.N.-
backed deal remain scant. Even in the most optimistic of scenarios, the 
agreement will take time to be implemented and the new government will 
face a number of difficult hurdles, including taking its seat in 
Tripoli, a city currently dominated by anti-deal forces. This is deeply 
regrettable, because it is clear that most average Libyans are tired of 
these divisions. Their lives are getting worse by the day and most want 
to see a unity government in place that restores order and launches 
economic reconstruction.
    Libya's economy is reaching a critical point. Libya is an oil-rich 
country, but over the past two and half years attacks on oil fields, 
pipelines and export facilities have dramatically reduced production--
from over 1.8 million barrels per day in early 2011 to around 300,000 
barrels per day today. Together with the drop in global oil prices, 
this has forced the country to run a deficit of up to $2-$3 billion per 
month. This is rapidly draining the country's foreign currency 
reserves, which now are estimated to be $50-60 billion, less than half 
of what they were only two years ago. There are growing cash shortages, 
and fuel and medicine are difficult to come by in a country that is 
heavily dependent on the importation of both, as well as of food. The 
Libyan dinar is worth a third of the official rate on the currency 
black market, and living costs have risen dramatically. Smuggling--of 
ordinary goods but also weapons and people--is thriving, as is 
corruption. In short, a parallel war economy is taking over as the 
state heads towards bankruptcy.
    Further compounding the country's economic problems, Libya's main 
financial institutions are institutionally divided along the same 
political fracture lines that have split the country since 2014. The 
two most important state financial institutions--the Central Bank of 
Libya (CBL) and the National Oil Company (NOC)--remain physically under 
the control of the Tripoli authorities, but the Tobruk-based parliament 
and its associated government have established their own parallel CBL 
and NOC. The two sides also continue to contest the ownership of the 
assets of a third crucial entity, the Libyan Investment Authority (LIA, 
the sovereign wealth fund), in international courts. In December 2015 
Crisis Group published a report about the state of the country's 
economy in which we urged international action to contain the rifts and 
help reverse the negative economic trend. In 2016 Libya's GDP growth is 
expected to be minus 8 per cent, potentially the world's worst 
performing economy. But I regret to inform you that, to this day, 
international engagement on the economic front is virtually non-
existent.
    The country's security landscape is also dire. Libya's two rival 
military coalitions--Libya Dawn in the west and Operation Dignity in 
the east, allied respectively with the Tripoli-based and Tobruk-based 
parliaments--have become increasingly fragmented, and leadership of 
both coalitions is contested. In the west the rifts are largely between 
(in some cases within) security units supporting the U.N.-backed 
proposed unity government and those against it. Similar fractures also 
exist within the so-called Libyan National Army (LNA), which operates 
in eastern Libya and is backed by the House of Representatives in 
Tobruk. Despite public attempts to minimize these rifts for the sake of 
public consumption, a number of local commanders have broken ranks with 
the leader of the LNA, General Khalifa Haftar, who has been one of the 
main obstacles to peace negotiations. There are opportunities to 
capitalize on these divides to form a moderate pro-peace bloc, but one 
should tread carefully: greater fragmentation could foster local 
conflicts, especially if Libya's neighbors continue to see the country 
as a theater for their rivalries. Yet it is critical for international 
supporters of a Libyan government of national accord to make a 
concerted effort to bring the country's security actors together in 
support of such a government. The absence of a security track as part 
of U.N.-led negotiations has been particularly glaring in this respect, 
an error that should be rectified as a matter of urgent priority.
    Despite a U.N. arms embargo, new firearms and ammunition continue 
to enter the country, provided by regional powers that are backing one 
side or the other. Egypt and the United Arab Emirates in particular 
have allegedly continued to provide support for General Haftar in the 
east, while Turkey and Qatar have in the past provided support for 
militias in western Libya. The US and other concerned parties have 
pushed these regional actors to take a more constructive approach, but 
some continue to provide support to their proxies and, despite their 
official support of the negotiations, continue to act in a manner that 
is counter-productive to peace. More must to done to stem this flow of 
weapons and funds, which only perpetuates the conflict, especially 
since weapons often find themselves on the local market where they can 
end up in the hands of radical groups.
    This brings us to the question of extremist armed groups, which 
unfortunately have proliferated since 2011 and the tragic attack on the 
U.S. consulate in Benghazi. More focus needs to be directed to finding 
a security roadmap for the country. The most worrisome group is the 
Islamic State, which has made important advances in Libya in 2015 and 
sees the country as its major new front outside of Iraq and Syria. IS 
affiliates have managed to build a base in the city of Sirte, a former 
Qadhafi stronghold where Libya's main east-west and north-south roads 
intersect, and have expanded 200km east towards the country's main 
crude-oil export terminals. IS supporters control a few neighborhoods 
in Benghazi, eastern Libya's largest city, and are present in the 
outskirts of Derna. They have also carried out deadly attacks in the 
country's west and cells of IS operatives are believed to exist in 
towns such as Sabratha, Bani Walid, Jufra.
    Based on the above facts, what can be done? What is the best course 
of action for the U.S. government to take in Libya?
    The international community, including the U.S., has understandably 
focused on IS because of the potential transnational threat it poses. 
Some have talked of military intervention to prevent the group from 
turning Libya into a platform from which it could attack neighboring 
countries such as Tunisia, which last year saw two major attacks 
believed to have been planned in Libya. These neighbors and Europe feel 
particularly threatened, and Libyans are also growing increasingly 
anxious despite a tendency towards denial about the IS threat.
    But one should proceed with caution. Rushing an international 
military intervention in Libya to counter IS would be short-sighted and 
would probably backfire. Any such intervention should be discreet, 
measured and linked to a political strategy aimed at bringing Libyan 
factions together into a single government. That must remain the 
overarching goal. A large-scale air and ground campaign would likely 
create more problems than it would resolve, particularly if it is 
perceived to take the side of one mainstream camp against the other. It 
is particularly important that any unity government, if formed, or the 
Presidency Council that exists today but lacks broad support not be 
pushed to issue a formal invitation for any type of military 
intervention: because of the fragility of the ongoing political 
process, this would enable spoilers to accuse their pro-peace rivals 
that they are enabling a foreign occupation of Libya, which would 
almost certainly provoke a nationalist backlash.
    Any effective action against IS will require local Libyan allies: 
this should be a Libyan-led effort. The best way to ensure this would 
be to encourage a dialogue between Libyan security actors. As I stated 
earlier, this has been a sorely missing element of the U.N.-led 
negotiations over the past year, and is more necessary than ever to 
bring to the table Libya's real powerbrokers. While working towards 
supporting the political track's aim of establishing a unity 
government, this security track would help resolve local-level 
differences between armed groups, encourage their coordination and the 
elaboration of a compromise on how the country's security will be 
managed, as well as help create the conditions for a coordinated anti-
IS strategy. Security arrangements and the political negotiations must 
go hand in hand, and not--as has been the case over the past year--
treated as two separate processes.
    Indeed, one of the main reasons that implementation of the deal 
signed in December is stalling is because there was insufficient 
preparation in securing the support of security factions, especially in 
the east of the country. In the months preceding the signing of the 
agreement, the U.N. made weak and contradictory arrangements to set up 
a security plan for Tripoli (the idea being that the GNA was supposed 
to be based there), and obtained the backing of some armed groups from 
the nearby city of Misrata, some brigades in Tripoli and others from 
Zintan. But the broader military divides were never bridged and 
rivalries between different local factions were never overcome. 
Disagreements on future security arrangements and top security 
positions continue to undermine the efforts to form a government of 
national accord to this day. For this to have a chance, more resources 
have to be set aside to pursue what Crisis Group has long advocated 
for--a security track dialogue.
    Similar strategic mistakes were made with the economy. The question 
of how to better manage, secure and distribute Libya's resources and 
wealth cannot wait. Some issues can be addressed through U.N.-led 
negotiations or parallel initiatives, pending a more formal review by a 
future unity government. The incentives all sides have are two-fold: if 
they do not act quickly to stem the bleeding, ordinary Libyans' living 
conditions will deteriorate beyond the threshold of the sustainable, 
and the current leadership on both sides will lose support as a result. 
Furthermore, should militia members' salaries stop being paid, mutiny 
and chaotic, predatory behavior is likely to ensue. More thought and 
preparation has to be put into these questions.
    A short-term requirement to stabilize Libya's finances would be an 
agreement by the rival camps on two broad issues: what measures can be 
taken to increase oil and gas production in order to replenish state 
coffers, and how to maintain a coherent, unified financial system. 
These issues become ever more urgent as the five-year mandate of the 
Tripoli-based governor of the CBL expires this month, which will likely 
trigger a political contest over who will appoint a successor.
    The Libyan conflict is multidimensional and complex. The political 
dimension cannot be dealt with separately from the economic dimension, 
and both are dependent on the security dimension. The international 
community should not repeat the mistake of last December, when it 
decided to push ahead with a political agreement with insufficient 
preparation, announcing a unity government when no unity was achieved 
and no body of any sort was in a position to govern. Rushing things 
through and ignoring the crucial task of making the necessary security 
and economic arrangements prior to any deal will only serve to 
undermine efforts to stabilize Libya and could impede the creation of a 
common front against IS. What is needed is a more concerted effort by 
all stakeholders on these three fronts. The U.S. has a major role to 
play here, particularly in ensuring that regional actors that are 
enmeshed in the conflict play a more constructive role through 
enticements in the form of promises of security and development 
assistance.
    In conclusion, neither forcing a political deal alone nor 
implementing a strictly counter-terrorism strategy in Libya will be 
successful if either is carried out in isolation. There need to be 
simultaneous efforts to overcome Libya's economic fractures, build 
bridges in a fragmented security landscape, and build confidence in a 
future GNA. Only these simultaneous efforts can prepare the ground for 
an inclusive, constructive, and lasting agreement and a return to a 
united and peaceful Libya.
    Thank you.


    The Chairman.  Thank you. Thank you very much.
    Dr. Wehrey, do you agree with Ms. Gazzini's point that us 
becoming involved in dealing with ISIS prior to the resolution 
of these other issues would hamper diplomatic efforts within 
Libya?
    Dr. Wehrey. I do, but I want to qualify that in the sense 
that I think that there are ways to do this on the ground 
discreetly in ways that mitigate the broader political risks 
that I just outlined.
    So the question is one of the time horizon. How long can we 
wait? I was there, and this Islamic state is building. So there 
are armed actors on the ground that are talking to each other 
about moving forward against the Islamic state. So the question 
is how we discreetly support those forces in a way that does 
not exacerbate the broader fault lines and that lays the seeds 
for reconciliation down the road.
    The Chairman.  I know an air assault has been contemplated. 
So prior to the government unifying, you do not think that 
would be a good step to take. Instead, you think something more 
discreet on the ground would be appropriate. Is that what you 
are saying?
    Dr. Wehrey. That is what I am saying. Very low level. I 
mean, the airstrikes, the surgical ones, I was there in the 
aftermath of this one on Sabratha. I was also there right after 
the U.S. grabbed Bukatala. The sense among Libyans is sort of, 
there is a sense about, well, we should have been consulted and 
some blowback. But a lot of it is like, good riddance. Let us 
get rid of these guys.
    So the spoilers, the rejectionists, will attack our 
strikes. I think as long as they are measured and discreet, 
they could serve utility. In tandem, this discreet strategy of 
special operators liaising with Libyan actors I think could 
work.
    The Chairman.  Speaking of special operators, it appears 
there are a wide variety of foreign special operations forces 
on the ground in Libya. Both U.S. and Europe have bold plans 
for support supporting the GNA. If the GNA is heavily supported 
by the West, does that not cause them to lack legitimacy in the 
eyes of Libyans?
    Dr. Gazzini. There is, first of all, in my point of view, a 
problem of how Libyans endorse this GNA. The procedures 
established in the agreement that Libyan stakeholders signed 
establishes that this GNA should be formally endorsed by a vote 
of the Tobruk-based parliament. At the moment, the discussion 
seems to be whether a vote is actually needed or not. I mention 
this because the extent of support that Western countries and 
non-Western countries will give to this future GNA has to be 
measured. And it also has to follow, from our point of view, a 
correct and proper endorsement mechanism of this government. It 
would be risky to throw on this future government of national 
unity a level of military assistance that will foster this idea 
of it being a creation, and not only a creation, a puppet of 
the will of Western countries.
    The Chairman.  Dr. Wehrey, do you agree or disagree?
    Dr. Wehrey. I do agree. I think there is a sense that this 
is a third government, that it has been imposed. So, yes, if 
there is military support flowing to that government, it could 
create some dissonance.
    Again, I just think that speaks back to this notion that we 
have to get all the security actors, all the armed forces, on 
the ground on board with this new government before we start 
opening up a third channel of assistance.
    The Chairman.  So I think we all know, just listening to 
testimony in Armed Services and other conversations we have, 
the U.S. is very concerned about the 5,000 to 6,000 ISIS 
members in Libya. You are saying that we should not be too 
heavy-handed in trying to seat this new government.
    So I would say there is significant concern that ISIS is 
growing. What are the prospects of there actually being a 
government seated, without additional involvement by the U.S. 
and others? Do you see this happening anytime soon? And in the 
process, what happens to ISIS?
    Dr. Wehrey. Again, I was in Tripoli. The security situation 
there is really fraught with risks. There is a patchwork of 
militias that are controlling different turf. So how do you get 
this government to come and return and set itself up? Do you 
have an agreement among these militias to protect the new 
government? We are not there yet. So this is really dangerous.
    I think what is happening in the interim is that local 
actors are going after ISIS, whether it is in Sabratha, whether 
it is in Derna. Some of these actors are not necessarily the 
sorts of people we would be dealing with normally. Some of them 
are tribal. They are Mafia-like. They are Salafists. But they 
are the ones that are pushing back against the Islamic state.
    In some cases, and I want to emphasize this, they are not 
often going after the Islamic state, per se. They are going 
after their rivals, and they are saying, ``These guys are 
Islamic state. We arrested them.'' But there is no way to 
verify this.
    So it is very fraught right now. That is why I think some 
measure of support on the ground liaising could sort of shape 
the environment where we harness these local actors before 
there is a unity government that seats itself.
    The Chairman.  Since he has answered that question, and I 
have 1 minute and 9 seconds left, any observations about, and I 
know this is a big question to ask with a minute left, but do 
you have any observations about what we have learned relative 
to our involvements in Libya?
    Dr. Gazzini. I think one lesson that can be drawn on the 
international engagement in Libya is that insufficient 
engagement in bringing together security groups in the country 
will not lead to a stable country, will not pave the way for a 
stable political life of the country. We made this mistake in 
December, pushing forward a political agreement without 
sufficient security sector arrangements. We take a risk now 
again of pushing forward an anti-ISIS coalition or military 
intervention without making those necessary footsteps to bring 
the armed groups on the ground together.
    Dr. Wehrey. Just to echo that, I think a big problem was 
that there was never a consensus early on about what the new 
military would look like, the demobilization of the militias. 
There was no security sector reform track.
    There was a huge focus early on on establishing the 
elections, voting, supporting civil society. But in the absence 
of a security track, I mean, those efforts fell apart. So the 
new parliament fell victim to militia pressure.
    So I think one lesson we have to learn is getting these 
actors to agree on a road map for building a new military, what 
is the role of the old officers, the remnants of Qaddafi's 
army? What is the role of the new so-called revolutionaries? 
How do we begin a process of getting the young men who are 
carrying arms into jobs and in schooling?
    And let us do that before we start training, because one of 
the lessons we learned from the general purpose force is, we 
start training these guys abroad, they come back to Libya, 
there is no military for them to join, so they are put on leave 
or they join their militias.
    The Chairman.  So getting the militias involved in the 
national security sector is something that has to happen?
    Dr. Wehrey. One way or another, yes.
    The Chairman.  With that, Senator Cardin.
    Senator Cardin. Once again, thanks to both of you for your 
testimony. I am trying to get a handle on how we move forward a 
Government of National Accord. There are two competing 
governments currently operating, two competing parliaments.
    Let me just first ask, if we had the support from the two 
competing sides, would that be sufficient to get legitimacy to 
a Government of National Accord?
    Dr. Wehrey. It might, but the problem, as I mentioned in my 
talk, is that there is no faction that speaks for both camps. 
So what you have had over the last year is the so-called Dawn 
and Dignity have actually fractured into various towns and 
municipalities and militias.
    So even if you had representatives from the two sides that 
agreed, you would have a very diffuse landscape where spoilers 
could play a role.
    Senator Cardin. So the representatives of the two factions 
cannot really speak for the population?
    Dr. Wehrey. No. This is what I found on the ground, and I 
think Claudia would agree, on the ground, there are these 
security actors who are calling the shots. They look at the 
people who negotiated this agreement as not representing them. 
So the reality of Libya is the devolution of authority to towns 
and municipalities.
    Senator Cardin. So what is the next step? My understanding 
is that there are differences between the two parliaments, but 
regional is the major division factor right now. How do you get 
then to the multiple stakeholders to have the type of buy-in 
necessary to get a Government of National Accord?
    Dr. Gazzini. There are many reasons why, until today, many 
members of the two parliaments opposed the prime minister 
designate and his cabinet lineup. Some are personal issues. 
Some are ideological. But I think there are two major factions 
that oppose this deal that are driven by two considerations, 
essentially, security and economics. There is a big faction in 
the Tobruk-based house of representatives that opposes this 
government lineup essentially because they perceive this 
government as proposing a future security arrangement that 
excludes their General Khalifa Hifter, which they view as a 
hero and which the Government of National Accord views as 
actually a problem, an impediment.
    The other faction is a constituency in the east, 
Federalist, that wants a greater share of the country's 
resources. Over the past 1.5 years, they have benefited 
tremendously from the presence of the government and the 
parliament in the east of the country, benefited financially 
just by having these politicians in their area.
    They fear that this future government will not give them 
the same benefits of the past 1.5 years. So that is why we say 
that in order to move the political process forward, get more 
buy-in by the members of the two parliaments, it is essential 
to build the trust between security actors and these 
constituencies that feel disenfranchised.
    Senator Cardin. Do you believe if we could get buy-in by 
the representatives of the two parliaments, that the concern 
about the fragmentation within the local communities can be 
resolved by working through the leaders of the two parliaments?
    Dr. Gazzini. The members of the parliaments, to a certain 
extent, are pressured by their local constituencies, their 
military constituencies as well, sometimes even threatened by 
these local fragmented security groups. So if the security 
groups are involved and start not opposing a political future, 
then the members of the parliaments themselves would have an 
easier life.
    Senator Cardin. What would it take for the U.S. to return 
its mission to Tripoli? Would that be pressure that could be 
used to bear to bring stakeholders together?
    Dr. Wehrey. You would have to have a plan for the security 
of Tripoli.
    Senator Cardin. I understand the security issues have to be 
resolved. But is that a leverage factor for the United States?
    Dr. Wehrey. I think so because a lot of these groups want 
access to U.S. aid and Western aid. So I think that can be an 
incentive.
    But again, I just think the divisions right now over who 
will predominate in the security sector--will it be the old 
officers led by General Khalifa Hifter? Will it be the younger 
revolutionaries and Islamists? This division has not been 
worked out.
    As was mentioned, in the east, there is this sense that 
General Khalifa Hifter is riding this wave. They do not want to 
relinquish him as the commander. In the west, there is a real 
sense that if the other side comes to power, they are going to 
throw the Islamists in jail.
    So there are these mutual recriminations and those have to 
be resolved at the security level before there can be any 
return of diplomatic facilities.
    Senator Cardin. So you all are coming back to security as 
the next major hurdle, if we are going to be able to get the 
type of buy-in necessary. So how do you convene a 
representative group to resolve the security issues and control 
of the militias?
    Dr. Wehrey. Yes, there is a role for the U.N. here. There 
is a role for a neutral broker. You do it in some neutral 
place. So there are pragmatic military leaders, military 
officers, militia leaders from both sides that do see a path 
forward. The question is how you identify the middle ground. 
And you get them together and you build a roadmap for a new 
security architecture.
    But right now, you have extremists, hardliners on both 
sides, that have the wind in their sails, that are using this 
ISIS campaign. So we are not there yet.
    Senator Cardin. Let me go to a couple other important parts 
to all this. That is, in the meantime, there are people 
hurting. The humanitarian needs are dramatic.
    Is there a network in which we can effectively help the 
people of Libya deal with the humanitarian crisis?
    Dr. Gazzini. I think there are two levels of engagement on 
that. One is local level engagement directly to alleviate the 
humanitarian conditions through the municipal council and 
society organizations that can distribute aid.
    But let me tell you, to a certain extent, the humanitarian 
crisis in Libya, the presence of IDPs, the shortages of food, 
the high living costs in the country, are a reflection of a 
broader systematic, institutional chaos in the country's 
economic and financial institutions. I think the U.S. has also 
a role to play in convening the Libyan economic and financial 
stakeholders who are at loggerheads at the moment, and pave the 
way for their own dialogue process to reach a consensus on the 
management of key financial economic institutions of the 
country. This will help the humanitarian situation as well.
    Senator Cardin. One last comment or question. It seems to 
me, from what you are saying, that the threat of ISIL or 
extremists is not looked upon as a unifying factor to develop a 
unified government because the local militias do their own 
thing in dealing with the threat. Is that a fair statement? Do 
you think we could use the real threat of ISIL development in 
that country as an incentive to unify the country with a 
unified government?
    Dr. Gazzini. Absolutely, Senator. There are conflicting 
narratives between the two broad camps about what ISIS is. The 
Tripoli side still blames ISIS as being a puppet of the former 
Qaddafi loyalists operating in the east of the country. Those 
in the east of the country blame Misrata and Tripoli-armed 
groups of maneuvering ISIS in Sirte into doing their own 
wishes.
    So unless this very dangerous conflicting narrative is 
overcome, it is impossible for these groups to come together to 
fight a common enemy. As long as they remain fragmented the way 
they are--and we are talking about geographically groups that 
are at loggerheads in and around this area of Sirte, which is 
an ISIS stronghold. So an important part of the security sector 
dialogue is to overcome these conflicting narratives.
    Senator Cardin. [Presiding.] Thank you.
    Senator Perdue?
    Senator Perdue. Thank you.
    Let me see if I get this right. Libya has a negative 
current account. They have this crushing debt that they have a 
growing difficulty in servicing. And they have grinding 
gridlock between two political factions. That sounds like 
Washington, D.C. The only difference is we do not have 
Democratic and Republican militias. I do not mean to make light 
of it, but I think we have to keep that in mind as we try to 
help these people there.
    I want to address two issues that you both spoke to. The 
first is the Dawn coalition and Dignity coalition. They are 
both getting support from somewhere. It looks like Qatar, 
Turkey, and Sudan have picked one side, and Egypt and UAE are 
possibly on another.
    Can you describe what those different countries are doing 
and how important their influence is or could be in bringing 
these two factions together? Dr. Wehrey?
    Dr. Wehrey. Over the course of the conflict, it has had an 
enormous impact. So from the eastern side, Egyptian military 
support, advisers, supposedly airstrikes, also from the United 
Arab Emirates, have been instrumental.
    So I think, in many senses, Egypt sees General Khalifa 
Hifter as its proxy in this broader conflict.
    I think there has been some lessening of the gulf support 
on the eastern side. My understanding is that some voices 
within the Egyptian Government are becoming disenchanted with 
General Khalifa Hifter. But it is still very present.
    On the other side, we have seen a lessening of the Turkish 
and Qatari support, to the point where I was visiting some 
militias in the Dawn coalition and they are very worried about 
funding and outside support.
    But weapons are coming into the country. There is no 
shortage of them. They are coming across borders.
    Senator Perdue. But are these outside countries influencing 
divisiveness? Are they encouraging them to get together and try 
to work this out politically?
    Dr. Wehrey. I do not know if we are there yet. I think 
there has been some improvement where they see this as a 
problem, but I do see them still waging this proxy battle.
    Senator Perdue. In that scenario, how do we ever create a 
national army to take care of national security? How do we do 
that? How do they do that?
    Dr. Wehrey. Well, again, that is why I mentioned we need to 
have a regional engagement strategy where we tell the gulf, we 
tell the Egyptians, that we need to get them on the same page 
with building this military. One of the problems over the past 
4 years was you had these regional actors setting up chains of 
supply to individual militias. That has to stop for us to 
create a new national army.
    Senator Perdue. Dr. Gazzini, you spoke about the financial 
situation and the impending collapse. I would like to go into 
that just a minute.
    It looks like 97 percent of their government's revenue 
comes from oil and natural gas.
    By the way, what are they paying for the debt that they are 
adding? Obviously, they are able to access the debt markets. 
What interest rates are they paying on that?
    Dr. Gazzini. No, this is not debt. They do not receive 
credit from abroad. Libya still has funds, but it is a balance 
of payment deficit that they are running every month. So when I 
mention $2 billion to $3 billion, it means that they have to 
tap into their own reserves $2 billion or $3 billion every 
month.
    Senator Perdue. And they have about $50 billion to $60 
billion in reserves?
    Dr. Gazzini. Left, yes. The actual figure is disputed.
    Senator Perdue. Of course. But we are not talking about 
years. We are talking about months. We can measure this in 
months.
    Dr. Gazzini. And a lot of this is nonliquid assets as well, 
yes.
    Senator Perdue. It looks like the remaining liquid foreign 
reserves are about $50 billion to $60 billion. I think you have 
that in your testimony.
    Dr. Gazzini. Yes.
    Senator Perdue. So what can we do to help them? If their 
economy collapses, if this fiscal collapse really happens, then 
what hope do we have of having a diplomatic solution? Does that 
not really ripen the ground for ISIS?
    Dr. Gazzini. Yes, exactly. I mean, the economic crisis in 
the country is a perfect, perfect recipe to allow ISIS to 
expand even further. They can have greater incentive to control 
even refineries and key oil-producing areas of the country.
    What the U.S. and the international community at large can 
do is put more pressure on the rival management chains of 
Libya's financial institutions. Let me tell you, Libya has a 
Central Bank located in Tripoli, which still pays all the 
salaries to government employees, but it has a rival chain of 
managers of a rival central bank located in the east of the 
country. The same for the National Oil Corporation, which 
manages the country's oil and gas assets. The same for the 
Libyan sovereign wealth fund and other state-owned companies. 
This is not sustainable.
    The U.S. Treasury, the U.S. Government, can do more to 
convince the rival managers of these institutions to reach at 
least a consensus. This would help very much.
    Senator Perdue. One final area to look into, what are the 
prospects for Tunisia and Algeria, just the neighbors there? Is 
ISIS now using Libya as a base? It looks to me like Libya is an 
attractive area. They are recruiting from Africa, from sub-
Saharan Africa and even in the West. Is that right?
    And secondly, what threat does that pose for Algeria and 
Tunisia and Egypt? Does this not pose a destabilizing influence 
on factions in Egypt?
    Dr. Wehrey. It is an enormous threat. The Tunisians are a 
significant presence in the west, in Sabratha, in the Sirte 
Basin. My understanding after my visit to Sabratha was that 
area was used basically as a transit hub, a logistics hub, a 
processing station for Tunisian jihadists coming in.
    Unfortunately, and somewhat alarmingly, what we are seeing 
now is a big backlash in these areas by local militias against 
any kind of Tunisians. So they are basically kicking out 
Tunisian foreign workers. They are asking Tunisians to 
register.
    So the Tunisian presence is a real issue for the Islamic 
state, and it could absolutely spillover to Tunisia, and it is.
    The question we have to ask is, what is ISIS's potential to 
spread among Libyan actors? There is a real potential there, 
especially in the Sirte Basin and areas of the east.
    Also, Algeria, I think the Algerians are playing somewhat 
of a containment game. The borders are closed down in the Ghat 
area in the southwest. I was down there. I do not see the 
Algerians really playing a constructive role within Libya 
itself. I think they are sort of in containment mode.
    Senator Perdue. Thank you, Mr. Chairman.
    The Chairman.  Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Dr. Wehrey, the Wall Street Journal recently reported that 
the United States military and some allies, including France 
and the U.K., have for months been preparing plans for a second 
intervention into Libya to support a potential Government of 
National Accord.
    The report also said that we and our partners have already 
established a coalition coordinating center in Rome.
    Could you talk a little bit about your view of what the 
risk of overreach could be, if we did have a second military 
intervention?
    Dr. Wehrey. Absolutely. I think the key question is, who 
exactly are we going to partner with on the ground? As I 
mentioned, there is no central body to work with. So the danger 
is we are going to be essentially backing disparate regional-
based militias in this fight against the Islamic state. They 
have their own agendas.
    When we give assistance, when we give military aid, we 
cannot control how it is used. In the midst of this sharp 
political conflict, as we both mentioned, these actors are more 
focused on each other rather than the Islamic state.
    So the question is, when we inject military force into this 
highly unstable situation, are we going to make it worse? So 
that is why we need to proceed very carefully before we 
intervene. The nature of that intervention, as I mentioned, if 
it is discreet, if it is advisory, I think those risks can be 
mitigated.
    Senator Markey. What is the daily production of oil right 
now?
    Dr. Gazzini. Around 300,000, 400,000 barrels a day.
    Senator Markey. So that is down from about 2 million a day?
    Dr. Gazzini. A little less than 2 million.
    Senator Markey. So they were doing 2 million a day at $100 
a barrel back in 2011. Now they are down to 300,000 barrels a 
day at $30 a barrel. So in a country of 6 million, 2 million 
barrels day is a very wealthy country for only 6 million, you 
can do a lot of good things. So with 300,000 barrels, not so 
good.
    What is the prospect of ISIS moving toward the oil 
production areas in this country and being successful in taking 
it over and using it for their own purposes?
    Dr. Gazzini. As you know, since February 2015, Islamic 
state affiliates in Libya have attacked some oilfields in the 
Sirte Basin area. Three were destroyed in successive attacks.
    Recently, in January, they did attempt to attack the oil 
terminals in the Sirte Basin. These are the country's two main 
crude oil-exporting terminals. So obviously, ISIS affiliates 
have shown signs of wanting to enter that area and attack the 
area.
    My analysis is that at the moment what they are trying to 
do is to actually destroy the oil and gas infrastructure in 
order to prevent the Libyan state from accruing revenues from 
the oil and gas, and practically pushing the Libyan state to 
bankruptcy. There are no signs at the moment they have the 
willingness or capacity to take over the oil facilities to 
actually use those as their own stream of revenue, but we 
cannot rule that out in the future.
    Senator Markey. In most of these countries, it is two 
things. It is ideology, sectarianism, and oil. That is the 
formula. So following the oil is always I think the most 
helpful thing, because they are looking for cash to fund all 
the things that they want to do.
    So if ISIS was moving toward controlling some of this oil 
territory, would that incentivize the U.S. and other coalition 
partners to say we have to get in there and make sure they do 
not control the oil? Would that be a wise thing for us to?
    Dr. Gazzini. If you look at that area of Libya, it is a 
very sparsely populated area. It is a desert, fundamentally, so 
it should be easy to provide intelligence, surveillance, aerial 
surveillance of the area, and also help the Libyan actors on 
the ground to be able to preempt any attack.
    These attacks that ISIS carries out are very visible 
because they come with four, five, six armored vehicles and 
drive through 100 kilometers of desert. That is not a normal 
civilian convoy driving through.
    So I think the U.S. can help by providing intelligence and 
logistics support.
    Senator Markey. So given the lowering dramatically of the 
oil revenue going into the hands of the government, that would 
mean that prospective targeted sanctions against all Libyan 
parties would have even more power over the limited amount of 
financial assets that they control. How effective would primary 
and secondary sanctions be on the parties in Libya who are not 
cooperating with trying to put together a unified national 
government?
    Dr. Gazzini. About a year ago, people looked into the 
possibility of calling for an asset freeze of Libyan assets 
abroad. The conclusion of that was that it would create more 
havoc than not. It would cause the exchange rate of the Libyan 
dinar to skyrocket and cause even more inflation in the 
country. So experts ruled that aside.
    Any decision that will be taken has to take into 
consideration the consequences on the ground.
    Senator Markey. So how can we put pressure on the bad 
actors inside Libya, if you cannot go after their assets, 
because they are still living pretty well? They have their 
financial assets, so they are kind of immune to the problems on 
the street because they still have a cash flow going into them. 
So how do we square that circle? How do we punish the bad guys 
and not punish the country, but move the bad guys more toward 
working to get a peaceful resolution?
    Dr. Gazzini. Many times, it is not about good and bad in 
Libya. Everybody feels self-righteous----
    Senator Markey. Bad guys to the extent they do not want to 
work toward peace.
    Dr. Gazzini. Yes, I understand what you mean in this 
respect. But sometimes it is enough to help create a moment of 
encounter between the two opposing factions or two opposing 
managers in order for them to possibly reach an agreement. 
Those moments of encounter are not there. It is not that 
somebody is ideologically opposed to reaching an agreement. 
Sometimes it is simply that they need to be pushed, helped to 
create those moments of agreement. I think the U.S. can do more 
in that direction.
    When we are talking about oil revenues going to the states, 
there is another factor. Local ceasefires and local 
arrangements with local security units will also help reopen 
some of these oilfields and oil terminals that have been 
closed.
    So it goes hand-in-hand with that process that both Fred 
and I were talking about of having to move the security sector 
arrangements in a linear way, in a progressive way, but in one 
direction.
    Senator Markey. Dr. Wehrey, comment?
    Dr. Wehrey. I agree. I have spoken to some of these 
hardline actors about, are you afraid of an asset freeze? Many 
of them brushed it off.
    So again, to the extent that these measures create a 
chilling effect within their community, I think the community 
level is really key here, in that these individuals depend on 
the support of communities and young men. If the communities 
themselves are on board with an agreement, then they will be 
self-policing. This is a very tightknit society.
    So again, I think there are measures we can do. The threat 
of ICC prosecution, asset freezes, these are gestures that 
signal to Libyan communities that these individuals are outside 
the pale. But we should not rely on those measures alone.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman.  [Presiding.] Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you both for your time today. Could you talk a little 
bit about the coalition that is currently involved in Libya 
right now that the United States is talking to about their sort 
of involvement in Libya, the coalition of nations and what that 
would look like and perhaps who the key players are that may be 
missing right now in terms of addressing conversations about 
Libya?
    Dr. Wehrey. Well, again, I think the key coalition partners 
in this are the Europeans, the Italians, the French, the 
British. I think as we both have mentioned, regional states 
have a role to play here in the sense that they, in some cases, 
need to back off.
    The Libyan perception is often very sensitive about outside 
involvement, about European involvement. So, again, I think 
having the endorsement of the United Nations is very important.
    But each of these states bring certain capabilities to bear 
on to Libyan challenges. After the revolution, I think there 
was this great sense in the United States that we expected the 
Europeans to step up to the plate and help out, especially on 
the security sector reform front. Many of them have niche 
capabilities to help in certain areas, police training, other 
areas. So I think they would be absolutely essential. I think 
the way forward is a multilateral one.
    Senator Gardner. Is there a key partner that we are missing 
in this discussion with Libya right now that is not playing an 
active role that should be?
    Dr. Wehrey. I mean, I think the gulf is absolutely 
essential to this. To the extent they are still funding both 
sides, it is essential to get them on board with the broader 
strategy.
    But I am not sure I would qualify them as an actual 
coalition partner in this.
    Senator Gardner. Right. You may have mentioned this before, 
too, but how many Libyans do we believe are presently fighting 
for the Islamic state in Syria? How many Libyans are fighting 
in Syria?
    Dr. Wehrey. Within Syria?
    Senator Gardner. Yes.
    Dr. Wehrey. I do not have that number.
    Senator Gardner. We do not know that. Okay. If they return, 
what does that pose, the fighters coming from Libya to Syria, 
returning to Libya then, what threat does that pose in Libya?
    Dr. Wehrey. Well, it is a huge one. That return was what 
triggered the foundation of the Islamic state, the so-called 
Battar Battalion returned from Syria infused with the Islamic 
state's ideology. They set up the nucleus. So it is absolutely 
critical.
    My understanding, based on my recent visit, is that a lot 
of Libyans went to Syria and Iraq to fight with sort of vanilla 
jihadist groups, but then joined the Islamic state and came 
back. To the extent that that process accelerates, it is very 
worrisome.
    Senator Gardner. The airstrikes that we have been reading 
about in the newspapers, they are not targeting infrastructure 
like they are perhaps in some of that ISIS-dominated areas in 
Iraq, or some of the oil production facilities, refining 
facilities in Libya. They are not targeting that, as far, as 
you know?
    Dr. Wehrey. As far as I know, no. They have been against 
high-value individuals. And then recently, this farm, which I 
saw, it was basically a processing center for Tunisian 
jihadists where they would come and get training before going 
on.
    Senator Gardner. General Dunford had stated in January 
testimony before Congress that it is fair to say that we are 
looking to take decisive military action against ISIL in 
conjunction with the political process. What decisive military 
action would actually do something different in Libya than we 
are seeing in Syria?
    Dr. Wehrey. I do not know what decisive would look like. I 
think the key hub of the Islamic state, where it has really 
established an operational foothold, is the city of Sirte. The 
liberation of that city I think would qualify as decisive.
    But other than that, the strategy is not really decisive. 
It is one of eroding the emerging nodes of the Islamic state, 
whether it is in the west. Much of this will be through 
intelligence, working with local actors.
    But if I was to say, if there is one center of gravity, it 
would be the town of Sirte.
    Senator Gardner. Ms. Gazzini?
    Dr. Gazzini. Certainly, Sirte is the main focus of IS 
activity. It is its stronghold. But let us not forget that in 
order to confront this organization in full in Libya, you also 
have to tackle its presence in Benghazi and its presence in the 
other eastern city called Derna.
    I mention this because in these other cities, ISIS 
affiliates have been able to coopt other groups on their side, 
in Benghazi especially. So for U.S. strategy to work, or an 
international strategy to work against ISIS, it is not 
sufficient to think of a military action targeted in Sirte. It 
also has to take into consideration how to resolve the 
strategic alliances, alliances of convenience that IS 
affiliates in Benghazi have been able to weave with other local 
Islamists and non-Islamist groups.
    Senator Gardner. Thank you. I need to head back to the 
Energy Committee. I apologize, Mr. Chairman. I will yield back 
my time. Thank you.
    The Chairman.  Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your testimony.
    I am trying to glean what the path forward is, from both 
your testimony and your responses.
    Mr. Wehrey, I looked at your testimony in advance of the 
hearing. I was struck, as you seem to be, that the complicated 
reality on the ground is one that has been centuries in the 
making--transactional society, hundreds of militias, competing 
ethnic and tribal affiliations, very aggressive regional 
loyalties that on any one day can include homegrown foreign-
born radicals, neighbors simply seeking to defend their homes 
and families, gangs stealing oil and wealth, and engaging in 
gratuitous violence, tribes and states in cold and hot wars 
against one another for generations, regional actors exploiting 
or protecting natural resources like oil and water.
    It is amazingly complicated. So what I am trying to glean, 
and looking at the reality and the summary of both of your 
answers to some of the questions, the fragmentation means that 
there are literally hundreds of different groups that 
potentially have to get buy-in, which is more or less the same 
situation we faced right after the 2011 military action.
    So what are the tools within our disposal, and that of the 
international community, in our arsenal of tools that could 
bring this fractious group, or at least the most significant 
elements of it, together, not only for their interests. 
Obviously, they want to continue to be involved and engaged, 
and of importance. I get that.
    But normally, when you bring security elements together, 
you bring them together in favor of a nation, some things that 
I want to fight for and die for, because I believe that nation 
at the end of the day represents the interests of me and anyone 
else who lives within Libya and in this disparate group.
    So I am trying to figure out what we bring to bear on these 
fragmented groups at this point in time to move us in a 
direction that not only creates a security situation we want, 
the allies that we want to fight ISIS, which is critical to us, 
but also to some sense of national government here, because 
otherwise we have brokered a truce among security groups who 
are not committed to national government.
    Can you sort of give me some sense of that?
    Dr. Gazzini. Thank you. You are right to say that it is 
difficult to bring all these fractured groups together in the 
absence of an inspirational figure or inspirational government. 
Unfortunately, the lineup of this proposed government of 
national unity has done very little to be that inspirational 
figure. Its media appearances have been abysmal. The news of 
infighting in the nine-member presidential council has actually 
caused a lot of disaffection.
    But in practical terms, what are the tools that the 
international community and the U.S. have? These are very 
practical. More human resources, even within the U.N. team, 
dedicated to security sector arrangements. Throughout 2015, 
there were only five or six people in the U.N. team trying to 
forge a consensus or a dialogue between the security units. I 
think five people is a bit too little. There is scope to 
increase the numbers.
    It is important for these international advisers and 
individuals who can support this process of dialogue between 
the security units to actually be present in the country. One 
of the problems that of course you know is that the embassies 
are not located in Libya. It is difficult for groups and 
international advisers to go and meet these military commanders 
on the ground, because they are in the ground. They are not 
sitting in a Tunis hotel waiting for a meeting with 
international interlocutors.
    But as both Fred proved and what I am doing in Libya also 
proved, you can go into the country. You can sit with these 
commanders. And that simple fact would help them move toward a 
process that would head toward unity, I think.
    Senator Menendez. Mr. Wehrey, do you have any comments? I 
hear that, and that is a facilitation of a conversation, which 
of course is worthy in and of itself. But then what else do we 
bring other than additional human capital to create that 
facilitation of a dialogue to bring disparate groups together?
    I am always thinking about what leverage you bring to the 
table, what capital you bring to the table, how you incentivize 
people. That is what it what I am trying to glean. So I 
appreciate that element of the answer.
    Do you have any other perspectives?
    Dr. Wehrey. I think we have to be sort of humble about what 
leverage we bring. I mean, there is sort of a constituency in 
Libya that sees the tremendous humanitarian and economic costs 
of this conflict. I think some of those actors were the ones 
that started this dialogue. But the parties themselves have to 
come to this realization that they need to stop.
    I think we should not exaggerate the divides in Libya. I 
mean, this is a small country, many different families are 
related. There is interdependence of trade. The expectations of 
a breakup I think are overblown.
    I do think we need to increase the mandate of the U.N., in 
terms of the security front.
    But I think our guiding principle in the interim is to do 
no harm. First, do no harm. I mean, where we are today was the 
result of one faction in the east undertaking a campaign in the 
guise of counterterrorism that basically forced disparate 
Islamist militias and radicals to coalesce and opened the door 
for radicalization. Part of the Islamic state's appeal is 
because of this factional civil war that was aided by regional 
actors. So I think we need to limit the damage from that.
    But I do think there has to be some humbleness. The 
factions themselves have to come to the table before we can 
force them.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman.  I appreciated you reading his testimony. 
Sometimes, I wonder whether we take all of those historic 
issues into account before we take action. I think we do not. 
Then to leave as we have with no focus on the security front is 
fascinating and has led us to a very bad place.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Wehrey, thank you for your testimony and your work, as 
well as Ms. Gazzini.
    Just to follow up on Senator Menendez's question, you sort 
of opened up the avenue here. You said your first 
responsibility was the Hippocratic oath, do not do harm. What 
is a potential U.S. action, what is a mistake we could make, 
that would compound the factionalization that could actually 
result in the situation getting worse, which is unimaginable? 
What should we guard against as potential next step out of 
abundance of enthusiasm to try to be helpful here?
    Dr. Wehrey. I would go back to counterterrorism and the 
idea that we are fixated on the threat from the Islamic state. 
That could lead us to intervene in ways where we exacerbate the 
partisan fault lines.
    There was an effort in the past, in 2013, to train a 
counterterrorism battalion in Libya. There were real questions 
about who was in that battalion and are we creating a real 
democratically controlled military unit or are we creating a 
factional militia. We are giving it support, but who is to say 
it will use that military support in ways that we want or 
against adversaries that we consider terrorists.
    So I think that is a real risk, that you inject assistance, 
you inject support into this mix, and you cannot control how it 
will be used.
    Senator Murphy. But you sort of describe a chicken and egg 
problem here in that if you train up a counterterrorism force 
today, ISIL may not be a big enough problem that they would 
concentrate their force there and they will go after somebody 
else. But then if you wait for ISIL to become big and bad 
enough that it actually is a relevant player in the theater in 
the way that it may not be today, then it is too late to train 
up the capacity to take them on.
    Dr. Wehrey. Yes, this is a real dilemma. As I have outlined 
in my testimony and in an article I have written, I think there 
are ways we can mitigate that through close oversight, so that 
when we have these advisory missions--I think familiarizing our 
operators, the people that are interfacing with the complex 
militia landscape, is the best way to go in mitigating the 
risk. So when you train a particular unit, ask the question, 
who is in that unit? Is it Zintani? Is it from Misrata? Just 
being aware of the landscape I think is absolutely essential.
    But we do not have the luxury of time, you are right.
    Senator Murphy. In answer to a question from Senator 
Gardner posed to both of you, but the question was again to 
you, you were asked who is sort of the missing player here, and 
you did talk about the gulf states, who have been on both sides 
of this dispute for some time. Qataris are on one side. The 
Emiratis on another.
    What are the conversations we need to have with the gulf 
states to get them of one mind? They, frankly, tell us what we 
want to hear. They tell us that they are just committed as we 
are to a unity state, that they are working on the ground to 
try to make that happen. That never seems to be the case.
    How does disconsonant is what we are hearing from the gulf 
states, that they are trying to be responsible players, and 
what you see on the ground as they seem to be supplying funds 
and potentially arms to both sides, to several sides of this 
fight? I would ask that of both of you.
    Dr. Gazzini. You are right to mention that on the surface 
all the international players are players in the Libya file. 
They are there. There are none really absent. But it is a 
matter of intent. What is the purpose of their being present in 
the conversation on Libya?
    I think there is a core of gulf countries that is present, 
but has different goals. They want a unified government in 
Libya, but they want it on their own terms. They want a unified 
government in Libya that can implement the same national 
security measures that they see as essential.
    I am referring to the UAE here and Egypt. As you know, 
domestically, they have a very absolutist vision of what is 
their national security and what has to be done in order to 
implement that national security. That means ruling out any 
power-sharing agreement with groups that are deemed, from their 
point of view, as a menace, as a threat, or even as terrorists, 
even though that label does not comply to our label of what a 
terrorist group is.
    So I think what can be done is to try to influence their 
vision on their own national security and what is the best 
course of action for Libya. I think Libya will continue to be 
at war. Groups will continue to confront each other across the 
country, if this exclusivist vision is there. We have to tell 
them that it is in their own best interests to put aside their 
own concerns and allow for a power-sharing deal even with those 
groups that in their country are not allowed to operate.
    Dr. Wehrey. I would just have a conversation with them that 
their approach to Libyan politics that excludes Islamists could 
produce a threat down the road that affects them in the sense 
that ISIS and terrorist groups thrive on recruiting losers from 
the new political order. So if there are Islamists that are 
excluded, if they are kept out of politics, I mean, they could 
be susceptible to radicalization, and the Islamic state could 
recruit them. So this, of course, is not a conversation just 
about Libya but the broader Arab world, the post-Arab Spring 
landscape, the role of political Islam.
    Senator Murphy. Obviously, all of the proxy players in this 
fight answer that question very differently about whether 
Islamists are brought into governing or kept out.
    Thank you very much, Mr. Chairman.
    The Chairman.  Thank you very much.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker.
    I would like to thank both of the witnesses today for your 
testimony in this incredibly challenging and complex 
environment, and in confronting the question of what we can do 
that will cause no greater harm than it could possibly move us 
in a positive direction.
    So just having reviewed your testimony and looked at some 
of the answers you have given to these difficult questions, you 
recommend, if I understand correctly, tying assistance, tying 
military training, equipment, support in the counter-ISIS 
fight, to first making significant progress toward political 
reconciliation and inclusion, both within military units and 
then nationally, in terms of some sort of government.
    Talk me through in a little more detail--and if you 
addressed this already, forgive me--how military strikes by the 
West will be perceived, misperceived, or used in order to 
advance intra-factional fights, and how we can actually drive 
agreement to a governance structure that promotes compromise 
over the long term? And what are the lessons from Iraq and from 
Syria that you would apply to this circumstance, if they are 
relevant?
    Dr. Gazzini. At the moment, the U.S. airstrikes have been 
discreet and limited. There has not been very much visible 
backlash to these strikes. It is difficult to say now what 
would happen if this type of airstrike were to increase in 
numbers and intensify. There could be backlash, especially the 
more you target, the more the chances of making an error, and 
you do not want to do that.
    So as long as it remains discreet and based on credible 
intelligence, then these airstrikes will possibly not lead to 
domestic opposition.
    But what we are advocating is that the political process be 
pushed forward hand in hand with the process in the security 
sector and in the economic field as well. One of the mistakes 
made in December was to push for a political deal between some 
20 signatories, political signatories, without having done the 
groundwork amongst the security units. To have a lasting 
political deal, you need the security units to back that. And 
you also need the economic and business elites to back that as 
well.
    So it is a matter of bringing the three levels of 
conversation--politics, security, and economy--forward together 
and all the while doing a counterterrorism strategy to contain 
the ISIS threat.
    Dr. Wehrey. I would agree. Military strikes, so far, have 
had a minimal impact. With the strike on Sabratha, the Tobruk-
based government, of course, raised the flag that we were not 
consulted, this is a violation of our sovereignty.
    But again, the ripple effects have been minimal so far.
    The lessons learned from Iraq and Syria, let me just 
extract one from Iraq. I think the real lesson from Iraq is the 
attention to exclusionary politics and how that creates 
radicalization and also especially with the security sector, 
that organs within the security sector, if they are captured by 
one faction and they are used against a minority or another 
group, can have devastating long-term effects. So in Iraq, we 
were not attuned to that.
    So I think moving forward, if we do start training and 
assisting the Libyans with their security sector, we have to 
pay attention to what is called a whole-of-government approach 
to building institutions, ensuring the different regions and 
tribes are represented in those institutions, and really 
exerting scrutiny that these institutions are not captured by 
one faction, as they were in Iraq, and used to marginalize 
communities, because that just sows the seeds of ISIS.
    Senator Coons. Let me ask another few questions, if I 
might, about ISIS and the relationships between ISIS in Iraq 
and the Syria and Iraqi ISIS and Libya. How closely connected 
are they? What evidence is there really of command and control? 
Is this simply just a place to send additional foreign fighters 
and to have a separate foundation or base from which to act? Or 
are they really closely connected? And is there a natural limit 
to how far ISIS can expand in terms of its geographic control 
within Libya because of the strength of local militias that are 
also well-armed, well-experienced, and aggressively fighting 
for their share of both physical territory, political space, 
and oil wealth. Is there a real limit?
    And how this does this compare or how is this distinct from 
Syria. The consequences of Qadhafi and his state collapsing 
have been dramatic, some might even say catastrophic for 
several other sub-Saharan African countries and for the region. 
What if any lessons would you conclude about the path forward 
in Syria?
    That is for the rest of my time. Thank you.
    Dr. Wehrey. I do think that there are inherent limits to 
the Islamic state's expansion in the sense that they have not 
been able to play this sectarian card where they can pray upon 
Sunni marginalization. They obviously have this hub within the 
Sirte Basin. But I visited this checkpoint called Abugrein that 
is manned by Misrata militias, so that is really the sort of 
frontline.
    So there are real limits as to how far they can expand 
westward because of the presence of these Misrata militias. 
They are certainly trying to put out feelers to the south and 
in communities, like Bani Walid and Jafra.
    But the question really in Libya is that everything is 
hyper-localized. Everything is very local. So it is very 
difficult for any group to really expand its territory, 
including the government. Everything is town and tribe related.
    Now that is not to say they cannot attract recruits from 
some of these older jihadist groups, other Islamist militias. 
That is what we see in Benghazi. Because the Islamist militias 
were confronted with a common enemy, General Khalifa Hifter, 
they banded together. The story in Benghazi is really that 
these Islamist militias are losing ground to the Islamic state. 
The Islamic state is sending foreign fighters in.
    I think that is the real concern, the degree to which the 
Islamic state central decides to invest in Libya through 
funding, through fighters, through training, advice, that is 
the real worry. The Islamic state does not have to control a 
lot of communities or territories to present a threat in terms 
of cells, in terms of training, a capacity to inflict damage on 
Tunisia and other vulnerable neighboring states.
    Dr. Gazzini. I disagree to a certain extent, in the sense 
that I do not think there are actual limits to the capacity of 
growth of ISIS in Libya. There is no checkpoint beyond which 
they cannot go. This is because of the security fragmentation 
in the country.
    I mentioned earlier that there have been ISIS-led attacks 
against oil fields in the central area of the Sirte Basin and 
actually what has stopped those attacks from allowing ISIS 
affiliates to move forward was a security group called the 
Petroleum Facilities Guard. Now if you look at the fact that 
the commander of this unit that patrols this 200 kilometers of 
coast is hated by other security actors and political actors in 
the country, and they will refuse to send him aid in military 
and support him with military reinforcement, tells you how 
vulnerable the whole country is.
    These political military rivalries between security units, 
if this state of fragmentation continues, could allow areas 
that are now not under ISIS control to be easily taken over, if 
there is no collaboration between those anti-Islamist, anti-
ISIS forces in the country.
    So I think this is an actual limit of Libya's capacity now 
to control this organization and limit its growth.
    You questioned earlier, what are the relations between ISIS 
in Syria and Iraq and Libya? I have traveled to ISIS-controlled 
territories before they were fully ISIS-controlled territories, 
but they were already there, Sirte, Ben Jawad, Harawa.
    A year ago, most of the commanders of that area were 
actually still Libyans, and the rank-and-file was jointly 
Libyan and foreign. I think in this past year, we have seen a 
big change. We have seen the flow of more operatives coming 
from Syria and Iraq, including amongst the ranks of the 
commanders.
    This also explains the change of their tactics in this 
area. A year ago, there was not much violence directed against 
the local population that largely went by. Only individuals who 
were associated as being recruits of local security units were 
arrested and killed or put to trial.
    Now we have seen a much more violent face of ISIS 
operatives in Libya, I think because of this arrival of 
foreigners to the country.
    Senator Coons. Thank you.
    The Chairman.  Thank you. You all have been outstanding 
witnesses.
    The picture you paint in Libya is not particularly 
optimistic, and you feel that Libyans need to resolve the 
situation with very light involvement from the United States. 
At least that is what I believe you are saying.
    Just to go back to the very beginning, how have your 
observations of Libya affected your thinking relative to the 
actions that the United States and others took to remove 
Qadhafi?
    Dr. Wehrey. It is not so much the removal but what came 
after. I think we missed a crucial window the first year--I 
call it the lost year--when it was still possible to get a 
handle on the security sector to save I think the very fragile 
experiment that was post-Qadhafi Libya.
    There was this obsessive focus on elections as a marker of 
success. I have spoken to both Libyans and American diplomats 
who were involved in this, and there was a sense that if we got 
this right, and the elections were fair and transparent, then 
we could basically declare victory, without this broader 
attention to the power of the militias, to these factional 
divides. That is the real sense of loss I think.
    So it is not the decision to remove him, but it is the 
crucial question of follow-up. We do not do that very well. 
Institutionally, I think we relied excessively on the United 
Nations and the Europeans to do that. The United Nations were 
not equipped to do it.
    So again, that was the crucial lesson learned from that 
period.
    The Chairman.  Ms. Gazzini.
    Dr. Gazzini. My organization, the International Crisis 
Group, in June 2011, said that there were the grounds for a 
mediated negotiation with the Qadhafi regime. We were in the 
peak of the war. NATO-led intervention was winning its battles. 
But we felt that moment the war could stop and there were 
opportunities to engage in a dialogue with the regime. 
Unfortunately, that did not happen.
    The intervention led to a policy of seemingly regime 
change. I think that very action of going after the regime 
produced this culture of disrespect and violence toward your 
political enemy, which currently exists in Libya. This idea 
that you do not need to compromise, because actually you can 
get it all, if only you go after your enemy. It is this culture 
that we infused in the country because of what happened that 
October 2011 when we went after the head of this regime. It is 
that culture that is now ruining the country and fostering this 
lack of trust toward your compatriot.
    The Chairman.  Dr. Wehrey, do you have any response to 
that?
    Dr. Wehrey. No, just to reemphasize what I said before, 
that the decision, this was a revolution. I think the 
responsibility of the international community was to shepherd 
what came after. I think that is where the focus should be in 
terms of actual lessons learned.
    I mean, I think much of what we are seeing today in Libya 
is the result of 42 years of mismanagement of Qadhafi. The 
culture of impunity, the divide in rule, that came not from 
NATO's intervention but that came from the way Qadhafi ran 
politics.
    To say that this was a peaceful country ignores the 
tremendous strife and divisions that were boiling under the 
surface. To say that he was keeping a lid on Islamic extremism 
is I think disingenuous because many of them were going abroad.
    So again, going back to the follow-up, there could have 
been a greater management of the consequences after the 
revolution. There was this overwhelming appreciation of the 
international response, pro-Americanism. There was a sense 
among many Libyans that they wanted a democratic, unified 
state.
    So the question is, what went wrong? Why was armed force 
the currency of the day? Why was there is no greater attention 
to the security sector, to building security institutions early 
on, before they became fragmented and subject to militia power?
    The Chairman.  What did it send to the region? I did not 
think we should have done what we did. I still wish for good 
things in Libya.
    We had a person who had done away with their weapons of 
mass destruction, and the signal that sent was: if you do away 
with your weapons of mass destruction, you are going to be 
taken out. That is what a lot of people learned from that.
    I think it sent a lot of signals in the region, and we are 
where we are.
    Let me flip it and just ask one different question.
    Someone asked you what we have learned from Syria to help 
in Libya. As it relates to Syria, what have we learned from 
Libya relative to how we go about a transition, if you will, 
with Assad?
    Dr. Gazzini. I think Libya teaches us that we need to be a 
bit more critical when talking to domestic interlocutors. One 
of the failures of the post-2011 process was to actually take 
at face value what was being told: ``We can do it. We can 
manage our political transition. You do not need to disarm. We 
can take care of our security factions. We will do it. We will 
do it.'' These were not lies. Libyans genuinely believed they 
could do it, that they could manage their own transition. Don't 
we all make that same mistake of thinking that we can solve our 
own problems?
    But I think a bit more critical thought in the ability of 
local groups to manage that process, to disarm and go beyond 
their own parochial interests, is needed for a future course of 
action as well.
    The Chairman.  Senator Risch?
    Senator Risch. Briefly, Ms. Gazzini, I do not want to 
quarrel with your answer when asked what lessons we learned, 
and that is that we taught the people they should not--I am 
oversimplifying what you said, I think--but that the path 
forward was not sitting at the table and talking your 
differences out, but rather that military force is the way you 
accomplish what you are trying to do. I gather that is what you 
were saying we taught the people there, or they believed that 
after the initiative that removed Qadhafi.
    Am I phrasing that incorrectly?
    Dr. Gazzini. Yes, fundamentally, my argument was that what 
happened in Libya in that October, November, 2011, at the end 
of the NATO intervention, meaning going after members of the 
regime, Muammar Qadhafi himself, created this culture, A, of 
impunity; and second of all, it fostered a culture by which 
Libyans thought it was all right to go against your political 
enemy and not open up channels of dialogue, even when it could 
be in your own personal interest to do so.
    Senator Risch. I guess I do not argue that that is what 
they believe. I think they believed that long before that 
initiative ever happened. And I think they believe that today. 
Unfortunately, my experience, and after listing to all the 
people who come through here every day, that part of the world, 
it seems to be that is their belief there.
    If your argument is that contributed to making it more 
believable, I could buy that. But to say that somehow we 
instilled that, I mean, that looks to me like that has been 
going on in that part of the world for centuries, that that is 
how you do that this. You take up arms and do what you want to 
do, but you do not sit down at the table, like we Westerners to 
do, to resolve stuff.
    So thank you though for your thoughts. I appreciate that. 
In that regard, I respectfully disagree with you.
    But our experience here in this committee as we listen to 
people is that that is just the way they do business there. How 
you change that, I certainly do not know.
    But in any event, Dr. Wehrey, do you have any comment on 
that?
    Dr. Wehrey. Again, I would argue that this was a product of 
Qadhafi's legacy, the way he ruled. There was no participation 
in governance. There was no communication among civil society. 
There was no dialogue. So you are absolutely right. To expect 
them to move from that situation to liberal democracy is 
exaggerated.
    Of course, they have this very triumphalist notion that it 
is winner-take-all, it is polarized, deep suspicion of other, 
whether it is another community, whether it is another tribe. 
This is the way Qadhafi ruled. He played communities against 
one another. He prevented dialogue.
    So I think this is really the legacy of his misrule.
    Why are there no Libyan Mandelas? Why are there no Libyan 
inspirational figures? Because he completely deprived the 
system of any chance for that to evolve.
    There was no bureaucracy. The muscle tissue of governance 
was not there. He himself was the center of everything. It was 
hyper-centralized. He controlled everything.
    So when he goes, what is to follow?
    Senator Risch. Would you agree with me that in that part of 
the world, that is not unique to Libya or Qadhafi?
    Dr. Wehrey. Absolutely. These are hyper-centralized states. 
The oil curse, the absence of investment in human capital, I 
mean, this is rife across the region.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Cardin?
    Senator Cardin. There are two issues I at least want to put 
on the table.
    After listening to the hearing here, it is apparent that 
there is not going to be a quick solution in Libya, and that 
just because the United Nations has taken action, that does not 
mean we are going to see an effective government any time soon. 
With that in mind, there is a continuing crisis in that region 
with migration and trafficking that will require a strategy. We 
cannot wait and allow people to be at risk the way they are. 
The Chairman has been one of our great leaders on trafficking 
in persons. We also have, of course, the migrant issue and 
safety of migrants, which is a huge international problem.
    So we are going to need your help in how we can be 
effective in dealing with that issue, because it is a high 
priority for America, and we would appreciate any advice you 
might want to give us on that.
    The second matter is something we have been talking about 
on this committee for a long time, and that is, those who 
commit atrocities need to be held accountable. As we look at a 
national government in Libya, as we look at international 
engagement, there has to be accountability for those who have 
committed atrocities. It has to be in a very open, transparent 
way.
    We always welcome a host country being able to handle it 
itself. If it cannot, then we look for the international 
community to come in and provide a framework. But that has to 
be part of this equation.
    Of course, too many times, we have been putting that down 
as a second priority rather than a high priority.
    So I just mention those two points, because I do not want 
this hearing to end without putting those two issues on the 
table. I welcome our witnesses' engagement with us as we try to 
deal with these continuing problems.
    Thank you, Mr. Chairman.
    The Chairman.  Well, I thank you, too. I think this has 
been a great hearing. I think that both of you have put forth a 
very different view as to how ISIS needs to be dealt with. That 
is something that I am going to take from this meeting and 
appreciate.
    I look forward to having discussions in that regard. I am 
semi-shocked, especially, Mr. Wehrey, with your point of view, 
but I am not criticizing that. As a matter fact, your point of 
view has a greater effect on me than someone not of your ilk, 
but I think it is a very different point of view than many who 
are looking at dealing with ISIS.
    Do you agree with that?
    Dr. Wehrey. I think the general thrust of U.S. policy, as I 
understand it, is sound. I would just urge greater caution to 
these complexities that we have outlined, that we need to be 
very cognizant about who we are dealing with, about injecting 
military force, about training. I think we have some capable 
people in the Defense Department, State Department, that I 
think understand these complexities. My understanding is that 
the strategy is proceeding according to those complexities, 
respecting those complexities.
    The Chairman.  We thank you both.
    If you would, if people want to ask questions, we will 
leave the record open until the close of business on Monday. If 
you could answer those fairly promptly, we would appreciate it.
    The Chairman.  This has been a major contribution to our 
committee. We thank you for that, and the meeting is adjourned.


    [Whereupon, at 11: 32 a.m., the hearing was adjourned.]

                                  [all]



</pre></body></html>
